USCA4 Appeal: 20-6235

Doc: 13

Filed: 09/28/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6235

MICHAEL FORMICA,
Petitioner - Appellant,
v.

HAROLD W. CLARKE,
Respondent - Appellee.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. Michael F. Urbanski, Chief District Judge. (7:19-cv-00039-MFU-RSB)
Submitted: September 24, 2020

Decided: September 28, 2020

Before HARRIS and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Dismissed by unpublished per curiam opinion.
Michael Formica, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-6235

Doc: 13

Filed: 09/28/2020

Pg:2of2

PER CURIAM:
Michael Formica seeks to appeal the district court’s order dismissing his 28 U.S.C.
§ 2254 petition as time barred. See Gonzalez v. Thaler, 565 U.S. 134, 148 & n.9 (2012)
(explaining that § 2254 petitions are subject to one-year statute of limitations, running from
latest of four commencement dates enumerated in 28 U.S.C. § 2244(d)(1)). The order is
not appealable unless a circuit justice or judge issues a certificate of appealability.
28 U.S.C. § 2253(c)(1)(A).

A certificate of appealability will not issue absent “a

substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When,
as here, the district court denies relief on procedural grounds, the prisoner must
demonstrate both that the dispositive procedural ruling is debatable and that the petition
states a debatable claim of the denial of a constitutional right. Gonzalez, 565 U.S. at 14041 (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Formica has not
made the requisite showing. Accordingly, we deny a certificate of appealability and
dismiss the appeal. We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MICHAEL JOSEPH FORMICA,
Petitioner,
v.

HAROLD W. CLARKE,
Respondent.

)
)
)
)
)
)
)

Civil Case No.: 7:19cv00039
FINAL ORDER
By: Michael F. Urbanski
Chief United States District Judge

In accordance with the memorandum opinion entered this day, it is hereby
ORDERED that petitioner’s motion for reconsideration (ECF No. 51), motion for new
trial (ECF No. 52), motion to expand the record and permit discovery (ECF No. 53), and
amended motion for reconsideration (ECF No. 55) are DISMISSED, and this action is
STRICKEN from the active docket of the court.
Further, finding that Formica has failed to make a substantial showing of the denial
of a constitutional right as required by 28 U.S.C. § 2253(c), a certificate of appealability is
DENIED.
The Clerk shall send copies of this order and accompanying memorandum opinion to
all counsel of record and to Formica.
ENTER: This 6th day of July, 2020.
Mike Urbanski
cnsMike Urbsnski, o«US Courts,
, :pu=Western District of Virginia,
•erh&il*mikeu@vawd.uscourts.gov, c=US
2020.07.06 17:58:01-04'00'

Chief United States District Judge

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MICHAEL JOSEPH FORMICA,
Petitioner,
v.
HAROLD W. CLARKE,
Respondent.

)
)
)
)
)

Civil Case No.: 7:19cv0OO39
MEMORANDUM OPINION
By: Michael F. Urbanski
Chief United States District Judge

)
)

Petitioner Michael Joseph Formica, a Virginia, inmate proceeding pro se, originally
filed this action as a petition for writ of habeas corpus, pursuant to 28 U.S.C. § 2254,
challenging his 2014 convictions in Greene County Circuit Court for twenty-three counts of
violating a protective order. After review of the state court records, the court granted
respondent’s motion to dismiss on the grounds that the § 2254 petition was untimely filed.
Formica v. Clarke. No. 7:19CV00039, 2020 WL 355219 (W.D. Va. Jan. 21, 2020). Formica
has now filed, pursuant to Rule 59(e) of the Federal Rules of Civil Procedure, a motion to
amend or alter the findings of fact, an amended motion to amend or alter the findings of
fact, a motion for a new trial (apparently pursuant to Rule 59(a) of the Federal Rules of Civil
Procedure), and a motion to expand die record by leave of court pursuant to Habeas Rule 7
with a request for discovery pursuant to Habeas Rule 6. For the reasons set forth below,
each of diese motions shall be denied.
I.
In support of his Rule 59(e) motion, Formica alleges that die district court erred in
finding his petition untimely and erred in refusing to grant die petitioner equitable tolling to
prevent manifest injustice. In support of the motion, Formica recites the litigation

background and timetable that were already part of the record at the time of the initial
decision on the § 2254 petition, including the filing of the late appeal from his state habeas
petition to the Supreme Court of Virginia and his subsequently dismissed petition for a writ
of certiorari to the United States Supreme Court.1 Formica then reasserts the grievances
raised in his § 2254 petition, apparently as his reasons for insisting that equitable tolling is
necessary to prevent manifest injustice.
A motion to alter or amend a judgment under Rule 59(e) is not intended as a means
for a dissatisfied litigant to reargue “'the very issues that the court has previously decided.”
Zinkand v. Brown. 478 F.3d 634, 637 (4th Cir. 2007). Rather, such a motion may be granted
only in three situations:
(1) [Tjo accommodate an intervening change in controlling law;
(2) to account for new evidence not available [previously]; or (3)
to correct a clear error of law or prevent manifest injustice.
Id. There has been no change in the controlling law since the court’s initial opinion finding
his petition untimely, nor has he introduced any evidence not previously available to support
his objection to the court’s finding of untimeliness. What he argues is his belief about, what
witnesses might say, if he got to ask them whatever questions he wanted to ask on crossexamination, and what evidence police files might contain if he were allowed to look at
them. That is not new evidence; it is simply rehashing Iris initial grievances about the trial.

1 The amended motion to amend or alter the findings of fact is identical to the first motion, except that copies
of his pleadings requesting exte.nsions from the United States Supreme Court are. attached. The. court: has already
accepted that these motions were filed with the Court. Those requests for extension are irrelevant to the issues, as
explained more fully in this opinion. The discussion of the Rule 59(e) motion in this secrion applies to both the original
and the amended motions.

2

A. Timeliness
Formica contends that this court erred in finding his petition untimely because (1) the
Supreme Court of Virginia wrongly determined that his notice of appeal from the circuit
court’s denial of habeas was not timely filed, and (2) he had requested extensions from the
United States Supreme Court because of his health. These same assertions were made in his
original § 2254 petition, and they still do not render his federal petition timely in this court.
The statute of limitations for filing a federal. ha.bea.s petition is one year; as relevant to
tills case, die one-year limitations period starts on die date the judgment of conviction
becomes final “by die conclusion of direct review or die expiration of the time for seeking
such review.” 28 U.S.C. § 2244(d)(1)(A). Direct review includes a petition for a writ of
certiorari in the United States Supreme Court, if the defendant so chooses. Clay v. United
States. 537 U.S. 522, 527—28 (2003). As discussed in the court’s prior opinion, Formica did
not petition the Supreme Court during his direct appeals, and his state conviction became
final on January 17, 2017, the expiration of the time for requesting certiorari. The one-year
statute of limitations for filing his federal habeas claims began to run on that. date. Had
there been no further proceedings in the state court, ids federal habeas petition would have
been due on or before January 17, 2018.
To encourage litigants to fully exhaust their claims in state court, the statute has a
tolling provision which stops the dock from running while a properly filed state habeas
petition is pending. Harris v. .Hutchinson. 209 F.3d 325, 327 (4th Cir. 2000) (citing 28
U.S.C. § 2244(d)). Whether such a state proceeding has been properly filed and whether it is

3

pending depends on state rules and laws, so long as the state rule is consistently and strictly
enforced by the state court Pace v. Diguglielmo. 544 U.S. 408, 414 (2005).
There is no dispute that Formica properly filed his state habeas petition on July 27,
2017. At that time, 191 days had elapsed, leaving 174 days left of the 365-day statute of
limitations. So long as the state habeas remained pending, the statute was tolled. A matter is
“pending” in tlie state court so long as it has not been completed. Carey v. Saffold, 536 U.S.
214, 220 (2002). The time between a judgment in. one court and filing an appeal in the next
court continues to toll the federal habeas statute of limitations “provided that the filing of
the notice of appeal is timely under state law.” Evans v. Chavis, 546 U.S. 189, 191 (2006). If
the appeal is not timely filed, the appellate court has no jurisdiction, and the case is ended.
Wei inn ore Coal Corp. v. Harman Alining Corp.. 568 S.E.2d 671, 672, 264 Va. 2/9, 282
(2002).
State law determines whether the state appeal is timely, and a federal court on habeas
review must defer to die state’s interpretation of its own raw. Pace, n44 U.S. at 414; Carey,
536 U.S. at 226. The Supreme Court of Virginia specifically held that Formica’s notice of
appeal was untimely. “It is not the province of a federal habeas court to reexamine statecourt determinations on state-law questions.” Estelle v. McGuire, 502 U.S. 62, 67-68
(1991). In other words, die state found die appeal untimely, and the federal court is not
allowed to make a different decision on that state law issue.2 The only proper inquiry for the

2 Even if the timeliness of the state habeas were an issue that federal courts could review on habeas, the court
would be compelled to reject Formica’s argument that he had timely placed his notice in. the prison mail on November
7, 2017. Rule 3A:25 of the Rules of the Supreme Court of Virginia specifies three ways in which an inmate may establish
when his pleading is deposited into the institutional mail: An official stamp of the institution, an official postmark, or a
notarized statement signed by an official of the institution. The only evidence in compliance with that rule was the

4

federal court is whether the state rule is consistently and strictly enforced, thereby
constituting an independent and adequate ground for the state’s denial of relief; the Fourth
Circuit Court of Appeals has long recognized that Virginia’s thirty-day limit for filing a
notice of appeal is a consistently and strictly enforced rule, constituting an independent and
adequate ground for denying relief. Wise v. Williams. 982 F.2d 142,143—44 (4th Cir. 1992).
Thus, the state habeas ended on November 7, 2017, the last date on which Formica could
have appealed to a higher state court. The federal court must interpret the federal tolling
statute as written and in accord with prior decisions of the Supreme Court. That means the
court must defer to the state court determination of when Formica’s state habeas was no
longer pending in state court.
Unlike determining when, direct review ends, determining when state postconviction
review is complete for purposes of the tolling statute is governed by a different standard, and
the time for seeking certiorari in the United States Supreme Court is not. included, in the
tolling provision. Lawrence v. Florida. 549 U.S. 327, 332 (2007). Therefore, the statute of
limitations began running again on November 8, 2017, as explained in the previous opinion.
What happened during Formica’s efforts to petition die Supreme Court after the state
habeas proceedings has no bearing on the timeliness of his federal habeas petition. If the
Court had accepted die petition and docketed the case for argument, the federal habeas
statute of limitations would still have been .running until the remaining 174 days passed,
expiring on May 1, 2018. That is the date by which Formica should have filed his federal

statement of the prison official that the nonce was delivered to the prison mail on November 8. 2017. The state court’s
factual and .legal determinations on this issue were dearly reasonable.

5

habeas petition in this court to be timely under the statute, but he did not mail his petition
until January 10, 2019, making it untimely.
B. Equitable Tolling
In challenging the court’s refusal to equitably toll the statute of limitations for an
additional. 252 days beyond the expiration of the statutory limit, Formica alleges that he
requested an evidentiary hearing on the timeliness issue. He is incorrect. His first motion
for an evidentiary hearing, tiled May 1, 2019, requested a hearing to develop the record he
was not allowed to develop in state court to support his substantive habeas claims on the
following four issues: (1) whether “fraudulent” advice of his attorney compromised
petitioner’s ability7 to make a knowing and intelligent decision on proceeding pro se in his
trial; (2) whether the trial, judge was biased against him; (3) whether standby counsel’s refusal
to assist pre-trial and during trial violated petitioner’s right to due process; and (4) whether
petitioner knowingly attempted to bypass procedural .rules. His amended motion for an
evidentiary hearing, filed May 28, 2019, added one additional issue: Whether tire Virginia
Supreme Court, unfairly dismissed his state habeas appeal. As discussed m the previous
section, the state court’s interpretation of its own procedural and timeliness rules is a matter
of state law, not cognizable on federal habeas .review. Although the state court’s decision on
that issue affects die timing requirements for a federal habeas petition, the two issues are
different, with each issue decided by different tribunals. A federal evidentiary hearing on
whether the state court correctly decided the state lawT issue would have been outside the
scope of a proper habeas review.

6

On January 18, 2019, die federal court entered an order conditionally filing Formica’s
petition, assessing a filing fee, and giving Formica fourteen days to provide additional
argument or evidence regarding the timeliness of his petition, which appeared to be
untimely. Formica provided the filing fee promptly, but nothing about die timeliness issue
until. May 20, 2019, when he filed an objection to the respondent’s claim of untimeliness.
The objection listed the same procedural and medical history included in die current Rule
59(e) motion, except that some dates differed by one or two days. The detailed discussion of
timeliness in die prior section explains why this court is bound by the state’s decision diat
the notice of appeal was untimely in that case and why die procedures in the United States
Supreme Court are irrelevant in calculating die statutory7 due date of Formica’s federal
habeas petition, though these factors could have some bearing on equitable tolling.
In die court’s original opinion in this habeas case, die court considered the effect of
equitable tolling to put Formica where he would have been if the Supreme Court of Virginia
had issued opinions on the merits on March 19 and May 2, 2018, rather dian a dismissal for
untimeliness. Had this court equitably tolled the limitation to that later date, May 2,
removing any adverse effect of the state court’s strict procedural rule, Formica’s § 2254
petition would still have been untimely by nearly three months. Equity is not served by
allowing a filing significandy later than warranted by die circumstances giving rise to die
delay. Accepting that Formica received late notice of the circuit court’s habeas decision, and
that the state court took more than four months to dismiss the appeal as untimely, there is
no reason to toll the federal habeas statute of limitations later dian the second decision of
the state court, denying his motion for reconsideration. This argument is supported by the

7

fact that Formica still had time to file his federal petition after the March 19, 2018, opinion
without the need for equitable tolling. He could have tiled his petition by May 1, 2018 and
been -within the statute of limitations. If, despite sufficient time for Formica to file a timely
petition after March 19, the court equitably tolled the statute until tire opinion of March 19,
2018, starting the 1 /4 days left from, that date, equity would justify accepting his petition
before September 10, 2018.
Equitable tolling is permitted only if a petitioner has pursued his rights diligently and
some extraordinary circumstance beyond his control prevented him from filing on time.
Holland v. Florida. 560 U.S. 631, 636, 649 (2010). There were no extraordinary
circumstances here, only Formica’s misunderstanding of the statute of limitations and how7
the tolling provision worked. The Fourth Circuit Court of Appeals has rejected a. pro se
prisoner’s ignorance of the law as grounds for equitable tolling. United States v. Sosa. 364
S.E.3d 507, 512 (4th Cir. 2004). likewise, the court, held that “misconception about the
operation of the statute of limitations is neither extraordinary nor a circumstance” beyond
the petitioner’s control. Id. This misunderstanding of the law led Formica to pursue
reconsideration in the Supreme Court of Virginia, followed by certiorari in die United States
Supreme Court, rather than filing his federal, habeas claim. Had he been diligent, he would
have filed his federal petition as soon as he received the opinion on March 19, 2018, and if
he still wished to pursue .reconsideration and certiorari, he could have requested a stay in the
federal court, as he did in January 2019 when he was still aw?aitdng a decision on his petition
for a w7rit of certiorari. Accordingly, Formica has not met the preconditions tor application
of equitable tolling.

8

C. Actual Innocence
In his Rale 59(e) motion, for the first time, Formica attempts to raise a Schlup claim
of actual innocence to avoid the statute of limitations. This argument fails because Formica
has not met the first requirement of such a claim: introduction of new evidence that was not
available to the defendant at the time of trial. A claim of actual innocence requires a
petitioner to come forward with “new reliable evidence—whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical physical evidence—that was not
presented at trial.” Schlup v. Delo. 513 U.S. 298, 324 (1995) (emphasis added). Only after
new-, reliable evidence is offered does the court weigh all. the evidence, including the new
evidence, to determine if a reasonable juror, more likely than not, would find reasonable
doubt. House v. Bell 547 U.S. 518, 538 (2006). That is the “actual innocence gateway.”
After the petitioner has introduced new evidence and the court has considered all of the
evidence in light of the new evidence, then found this likelihood that a jury would not
convict, only then can a federal habeas court consider the constitutional challenges raised in
an untimely habeas petition. Id.
Formica attempts to turn this gateway backwards by theorizing that he can find
evidence of his actual innocence if only he can have discovery of the investigative files and a
hearing. Such a procedure is contrary to the narrow exception intended by the Court; every
convicted person would claim that the investigating officer lied and that the official police
records would prove it, if only they could get the records. That would tremendously
increase the burden on judicial resources and threaten the principles of finality and comity

9

that the Supreme Court intended to protect. Schlup. 513 U.S. at 324. Thus, Formica has
failed to present a valid gateway claim of actual innocence.
Because Formica’s petition was untimely under the statute and neither equitable
tolling nor the actual innocence gateway applies, his Rule 59(e) motion will be denied.
II.
Formica’s motion for a new trial is, essentially, a successive habeas claim, seeking to
relitigate the issues raised, in his original § 2254 petition. Any filing that seeks relief from a
state court’s judgment of conviction is an application for habeas corpus relief. Gonzalez v.
Crosby. 545 U.S. 524, 530 (2005). Because the court has already ruled on Formica’s habeas
petition, he cannot file a second or subsequent habeas without prior authorization from the
Fourth Circuit Court of Appeals. 28 U.S.C. § 2244(b)(3). Further, the issues raised are the
same, as those raised in the prior habeas petition and cannot be relitigated in a new
application. 28 U.S.C. § 2244(b)(1). Accordingly, the court, will dismiss this .motion.
III.
Under its language, Rule 7 permits expansion of the record “[i.]f the petition is not
dismissed.” The court dismissed Formica’s habeas petition, and accordingly, his motion to
expand the .record is both untimely and unsupported by the Rules Governing Section 2254
Cases (hereafter, Habeas Rules).
likewise, Rule 6 of the Habeas Rules requires a party requesting discovery to show
good cause. A habeas petitioner is not entitled to discover}- as a matter of right. Good cause
must include “specific allegations suggesting that tire petitioner will be able to demonstrate
that he is entitled to habeas corpus relief.” Stephens v. Branker. 570 F.3d 198, 213 (4th Cir.

10

2009). “Speculation that additional information may exist’’ is not sufficient. Id, Formica’s
request does not meet the standard. In any event, because his petition has been dismissed as
untimely, discovert7 is not appropriate and will be denied.
IV.
Based on the foregoing, the court will, dismiss Formica’s motion to amend or alter the
findings of fact, amended motion to amend or alter the findings of fact, motion for a new
trial, and motion to expand the record by leave of court pursuant to Habeas Rule 7 with
request for discovery pursuant to Habeas Rule 6.
ENTER: This 6th da.y of July, 2020.
/

Mike Urbanski
cn=Mike Urbanski, o=US Courts.
^ :ou=Western District of Virginia,
.fii-'nally:rnikeu^vawd.uscourts.gov, c=US
2020.07.06 17:54:49 *04’00’

Chief United States District judge

11

■

A

• '—I vvi

FILED

JAN 2 12020
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MICHAEL JOSEPH FORMICA,
Petitioner,

'c.

ju

BY;

D]

)
)

Civil Case No.: 7:19cv00039

)

v.

)

FINAL ORDER

)

HAROLD W. CLARKE,
Respondent.

)
)

By: Michael F. Urbanski
Chief United States District Judge

In accordance with the memorandum opinion entered this day, it is hereby
ORDERED that respondent’s motion to dismiss (ECF No. 18) is GRANTED and
Formica’s 28 U.S.C. § 2254 petition is DISMISSED. Formica’s motion to preserve
evidence (ECF No. 11), motion for release of property from Pocahontas Correctional
Center (ECF No. 16), motions for evidentiary hearing (ECF No. 17 & 29), and motion to
• expand the record are DISMISSED as moot, and this action is STRICKEN from the
active docket of the court.
Further, finding that Formica has failed to make a substantial showing of the denial
of a constitutional right as required by 28 U.S.C. § 2253(c), a certificate of appealability is
DENIED.
The Clerk shall send copies of this order and accompanying memorandum opinion to
all counsel of record and to Formica.
ENTER: This gH

day of January, 2020.

/i/ 'pUchad
ChiePunited States District Judge

C/ERK
RK

'“'S—

AT ROANOKE, VA
--------------F)CEQr------

JAN 2 1 2C2Q

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA JULIA ffi. D.
BY:
ROANOKE DIVISION
‘
Dl
MICHAEL JOSEPH FORMICA,
Petitioner,
v.

:rk

)
Civil Case No.: 7:19cv00039

)
)
)

MEMORANDUM OPINION

)

HAROLD W. CLARKE,
Respondent.

By: Michael F. Urbanski
Chief United States District Judge

)
)

Michael Joseph Formica, a Virginia inmate proceeding pro se, filed this petition for
writ of habeas corpus pursuant to 28 U.S.C. § 2254, challenging his 2014 conviction and
sentence in Greene County Circuit Court. The respondent has filed a motion to dismiss.
Upon review of the pleadings and the state court records, the court finds that Formica’s
petition is untimely filed, and therefore, the court will dismiss the petition.
I.
On July 29,2014, a jury in the Greene County Circuit Court convicted Formica of
twenty-three counts of violating a protective order on various dates between October 17,
2012 and September 19, 2013. On November 4, 2014, following a sentencing hearing and
consideration of a pre-sentence report, the Circuit Court pronounced a sentence of 161
months, in accord with the jury’s recommendation (seven months on each count, to run
consecutively), to be followed by two years of supervised release. The Circuit Court entered
judgment on November 17, 2014. Formica appealed his conviction and sentence to the
Court of Appeals of Virginia, which denied his appeal by opinion and order entered
September 8, 2015. On October 19, 2016, the Supreme Court of Virginia summarily denied

Formica’s appeal from the Court of Appeals. Formica did not file a petition for writ of
certiorari to the Supreme Court of the United States.
Formica filed a habeas petition in the Greene County Circuit Court on July 27, 2017,
raising fifty-three issues. The Circuit Court dismissed the petition on October 8, 2Q17. On
November 3, 2017, Formica filed a “motion to prepare record for appeal” in the Circuit
Court and in the Supreme Court of Virginia. The Circuit Court clerk responded by letter
dated November 8, 2017, noting that she was in receipt of his motion and expressing
concern that he may not have received a copy of the order entered on October 8. Formica
filed a handwritten notice of appeal dated November 7, 2017, delivered to the prison mail on
November 8, and docketed by the Supreme Court of Virginia on November 9,2017. On
November .28,.2017, Formica requested a thirty-day extension, until February 5, 2018, to file
his petition, which the Court denied by order entered December 14, 2017. Formica filed his
petition, placing it in the prison mail on January 5, 2018. The Commonwealth of Virginia
indicated by letter that the state would not be filing a response brief, because the notice of
appeal was untimely. On March 19, 2018, the Supreme Court of Virginia dismissed the
habeas appeal for lack of a timely notice of appeal and on May 2, 2018, denied Formica’s
motion to vacate the dismissal and grant rehearing.
Formica filed the instant § 2254 habeas petition on January 10, 2019, by placing it in
the prison mail His federal petition has consolidated his claims into eight issues. The court
conditionally filed the petition, advised Formica that the petition appeared to be untimely
filed, and gave him an opportunity to provide additional evidence or argument regarding the

2

timeliness of his petition. Formica amply briefed his eight claims, but he submitted nothing
further regarding the timeliness issue.
II.
Under the Antiterrorism and Effective Death Penalty Act of 1996, a petitioner has a
one-year period in which to file a federal habeas corpus petition. This statute of limitations
runs from the latest of:
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review,
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws
of the United States is removed, .if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D)the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence.
28 U.S.C. § 2244(d)(1).
Formica has alleged nothing to support application of § 2244(d)(l)(B)-(D). Under
§ 2244(d)(1)(A), Formica’s conviction became final on January 17,2017, when his time to
file a petition for writ of certiorari to the Supreme Court of the United States expired, and
the statute of limitations began to run on that date.
Section 2244(d)(2) tolls the federal limitation period during the time in which “a
properly filed application for State post-conviction or other collateral review... is pending.”
3

Id. Tolling is an interruption of the one-year period, a pause of the clock, so when Formica
filed his habeas petition in Greene County Circuit Court on July 27, 2017, the statute of
limitations stopped running on that date, after 191 days had elapsed, leaving 174 days of the
year unused. Once the state habeas is no longer pending, the clock picks up where it left off;
the one-year period does not begin anew when the state matter concludes. McHonev v.
South Carolina. 518 F. Supp. 2d 700, 703—04 (D.S.C. 2007).
An application for post-conviction review or other state collateral proceeding is
“properly filed” when its delivery and acceptance are in compliance with the applicable laws
and rules governing filings.” Artuz v. Bennett. 531 U.S. 4, 8 (2000); see also Pace v.
Diguglielmo. 544 U.S. 408, 414 (2005). Formica’s state habeas was timely and properly filed,
but the Respondent contends that the matter was no longer pending when the thirty-day
window for appealing the dismissal expired. The circuit court dismissed Formica’s state
habeas petition by order entered on October 8, 2017.1 Respondent argues that Formica’s
attempt to appeal the denial of his state habeas was untimely, and therefore, his state action
was no longer “pending in any state court” Harris v. Hutchinson. 209 F.3d 325, 327 (4th
Cir. 2000) . Rule 5:9 (a) of the Rules of the Supreme Court of Virginia requires a notice of
appeal to be filed within thirty days from entry of the final order. Thirty days from October
8 expired on November 7. Formica’s notice of appeal was not placed in the prison mail
until November 8, and thus, the notice was untimely.
If the state petition is untimely under state law, “that is the end of the matter for
purposes of § 2244(d)(2).” Pace. 544 U.S. at 414. Here, the Virginia Supreme Court

The court notes that October 8, 2017, was a Sunday, an unusual day for entry of a final order.

4

expressly held that Formica’s appeal was dismissed because he failed to file the notice of
appeal in a timely fashion. The United States Court of Appeals for the Fourth Circuit has
recognized that this rule is consistently and strictly enforced by the Virginia courts and is an
independent and adequate grounds for the state’s denial of relief. Wise v. William.^ 982 F.2d
142,143-44 (4th Cir. 1992). In Wise, the court held that a petitioner’s federal habeas claim
was barred by his failure to file a timely notice of appeal from a circuit court order denying
habeas relief. Id.2 After November 7, 2017, then, there was no “properly filed” habeas
proceeding pending in state court. At that point, the respondent argues that the one-year
clock resumed with 174 days remaining. Formica did not file his § 2254 petition until
January 10,2019, at the earliest, or 426 days past November 7, 2017, well beyond the 174
days that remained on the statute.
The Supreme Court has recognized that the statute of limitations for habeas petitions
is subject to equitable tolling, if the petitioner has pursued his rights diligently and some
extraordinary circumstances prevented his timely filing. Holland v. Florida. 560 U.S. 631,
636, 649 (2010). Even if the court were to equitably toll the statute until March 19,2018,
that would not save his federal petition; the 174 days remaining on the statute would have
expired on September 10, 2018, if the clock started running again on March 19, 2018.
Formica filed his federal petition four months after that date, and his petition was untimely.
Even if the court tolled the statute until May 2, 2018, when the state court denied his motion

2 Although Wise involved procedural default under the exhaustion doctrine, it provides ample evidence that an
untimely notice of appeal is fatal to an appeal being considered “properly filed” in the state habeas case and supports the
conclusion that Formica’s state habeas case ■was no longer properly pending in the state courts. At any rate, if the federal
petition had been timely filed, Formica’s claim would be procedurally defaulted because of the state court’s dismissal on
procedural grounds.

5

